                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

  Case Number: A12050028                                                                       Page 1 of 1



                  Our office received an allegation that a PI (Subject) 1 submitted a proposae containing
          plagiarism from another individual's previously awarded proposal. 3 It was also alleged that the
          Subject's mentor4 (who processed the previously awarded proposal while serving an appointment
          as an NSF Program Director) provided the proposal to the Subject or told the Subject to use that
          proposal as a guide.

                We reviewed the proposal and identified de minimis material copied from the previously
          awarded proposal. However, we identified substantial material copied from six other sources.

                  We contacted the Subject regarding the allegation. The Subject said he accidentally
          uploaded a non-finalized version of the proposal right before the submission deadline. He
          provided a copy of the finalized proposal and emails exchanged on the day of submission, and
          detailed how the proposal submitted contained "critical flaws which no one should submit." He
          apologized and said his University had already withdrawn the proposal by his request.

                  We reviewed the finalized proposal and an NSF proposal on which the Subject was Co-
          PI, and identified no plagiarism in either document. We also reviewed the email exchange. Based
          on the evidence, we concluded the Subject was being truthful in his assertion that the proposal
          submitted to NSF was a draft version of the proposal he erroneously submitted.

                  To resolve the possible violation of proposal confidentiality, we contacted the PI of the
                                       5
          previously awarded proposal and asked whether she had given the Program Director permission
          to share her proposal with others. We determined it was more likely than not that the PI had
          given the Program Director permission to share her proposal.

                  We sent the Subject a Questionable Research Practice letter, in which we reminded him
          about the need to be careful that all materials he submits to NSF are properly attributed to their
          source.

                    Accordingly, this case is closed and no further action taken.




NSF OIG Form 2 (11 /02)
